IN THE SUPREME COURT OF THE UNITED STATES

DANIEL LENE LOPEZ
Petitioner,

v.

UNITED STATES OF AMERICA
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Eighth Circuit

I, Joseph G. Bertgoli, do swear and declare that on this date, August 31,
2020, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them with first-class
postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 31, 2020.

 

18
